No: 20-1195
In the

Supreme Court of the United States
KANSAS NATURAL RESOURCE COALITION,

Petitioner,

v.
UNITED STATES DEPARTMENT OF INTERIOR; et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITIONER’S
REPLY BRIEF contains 2,984 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 17, 2021.
JONATHAN WOOD
Counsel of Record
Pacific Legal Foundation
3100 Clarendon Blvd., Suite 610
Arlington, Virginia 22201-5330
Telephone: (202) 888-6881
Email: JWood@pacificlegal.org
Counsel for Petitioner

